/

No.
IN THE
SUPREME COURT OF THE UNITED STATES
JANE DOE, Petitioner
vs.
BEN CARSON, et al.
PROOF OF SERVICE
I, Jane Doe, do swear or declare that on this date, December 7, 2020, as
required by Supreme Court Rule 29 I have served the enclosed
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS and
PETITION FOR A WRIT OF CERTIORARI on each party to the above
proceeding or that party’s counsel, and on every other person required
to be served, by depositing an envelope containing the above documents
in the United States mail properly addressed to each of them and with
first-class postage prepaid, or by delivery to a third-party commercial
carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
Ms. Jeanne Frances Long, Attorney for HUD & US
Office of the U.S. Attorney
PO Box 208
Grand Rapids, MI 49501
Mr. Erik Graney, Attorney for MSHDA
Michigan Department of the Attorney General
State Operations Division, PO Box 30754
525 W. Ottawa St., Lansing, MI 48909

RECEIVED
DEC 1 4 2020
SUPREM^Jnifor-Py

/

Solicitor General of the United States
Room 5614, Department of Justice
950 Pennsylvania Ave. N.W.
Washington, D.C. 20530-0001
I declare under penalty of perjury that the foregoing is true and correct.
Executed on December 7, 2020

\

ign) ture

